CERTIFICATE OF SERVICE
NO. 20-1668
City of Tahlequah, Oklahoma, et al.
Petitioners,
v.
Austin P. Bond, as Special Administrator of the Estate of Dominic F. Rollice, Deceased
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
NATIONAL POLICE ASSOCIATION MOTION FOR LEAVE TO FILE AND AMICUS AT PETITION STAGE IN
SUPPORT OF PETITIONERS, by mailing three (3) true and correct copies of the same by Fedex 2-Day,
prepaid for delivery to the following addresses.
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for City of Tahlequah, Oklahoma, et al.

David Michael Shapiro
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-0711
david.shapiro@law.northwestern.edu
Counsel for Austin P. Bond

Lucas DeDeus

June 30, 2021
SCP Tracking: Lafferrandre-1109 North Francis Avenue-Cover Cream

